OIG Audit Report GR-60-07-003

Use of Equitable Sharing Revenues by the Boulder County Drug Task Force, 
Boulder, Colorado

Audit Report GR-60-07-003


April 2007
Office of the Inspector General


Executive Summary


 The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues received by the Boulder County Drug Task Force (BCDTF). Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1   During the period of October 1, 2004, through September 30, 2006, the BCDTF was awarded DOJ equitable sharing revenues totaling $1,108,366 and property valued at $15,611 to support law enforcement operations. 
 We reviewed the BCDTF’s compliance with six essential equitable sharing guidelines and found that the BCDTF generally complied with the guidelines. However, we found weaknesses in the following areas: 

 The Annual Certification Reports submitted for the Fiscal Years (FY) 2005 and 2006 contained inaccurate information. 
 A new Federal Sharing Agreement was not submitted when an administration change occurred. 
 We identified $88,352 in questioned costs related to transfers of equitable sharing revenues from the BCDTF to participating agencies that did not submit the required Federal Equitable Sharing Agreement. 

 The results of our work are discussed in greater detail in the Findings and Recommendations section of this report. The audit objectives, scope, and methodology appear in Appendix I. 
 We discussed the results of our audit with BCDTF officials and have included their comments in the report, as applicable. In addition, we provided the BCDTF and the DOJ, Criminal Division, with a draft copy of our audit report and requested a formal response. The BCDTF provided a response to the draft report, which is shown in our report at Appendix III. The Criminal Division did not provide a response to the draft report. 



Footnote

The DOJ asset forfeiture program has three primary goals: (1) to punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities; (2) to enhance cooperation among foreign, federal, state, and local law enforcement agencies through equitable sharing of assets recovered through this program; and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law enforcement.








Return to OIG Home Page